<html>
<title> - THE U.S. AND THE CARIBBEAN IN THE NEW MILLENNIUM: WHAT IS THE AGENDA?</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]



 THE U.S. AND THE CARIBBEAN IN THE NEW MILLENNIUM: WHAT IS THE AGENDA?

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                         THE WESTERN HEMISPHERE

                                 OF THE

                              COMMITTEE ON
                        INTERNATIONAL RELATIONS
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS

                             SECOND SESSION

                               __________

                        WEDNESDAY, MAY 17, 2000

                               __________

                           Serial No. 106-122

                               __________

    Printed for the use of the Committee on International Relations


                               __________

                    U.S. GOVERNMENT PRINTING OFFICE
65-659                     WASHINGTON : 2000


 Available via the World Wide Web: http://www.house.gov/international 
                               relations

                                 ______
                  COMMITTEE ON INTERNATIONAL RELATIONS

                 BENJAMIN A. GILMAN, New York, Chairman
WILLIAM F. GOODLING, Pennsylvania    SAM GEJDENSON, Connecticut
JAMES A. LEACH, Iowa                 TOM LANTOS, California
HENRY J. HYDE, Illinois              HOWARD L. BERMAN, California
DOUG BEREUTER, Nebraska              GARY L. ACKERMAN, New York
CHRISTOPHER H. SMITH, New Jersey     ENI F.H. FALEOMAVAEGA, American 
DAN BURTON, Indiana                      Samoa
ELTON GALLEGLY, California           MATTHEW G. MARTINEZ, California
ILEANA ROS-LEHTINEN, Florida         DONALD M. PAYNE, New Jersey
CASS BALLENGER, North Carolina       ROBERT MENENDEZ, New Jersey
DANA ROHRABACHER, California         SHERROD BROWN, Ohio
DONALD A. MANZULLO, Illinois         CYNTHIA A. McKINNEY, Georgia
EDWARD R. ROYCE, California          ALCEE L. HASTINGS, Florida
PETER T. KING, New York              PAT DANNER, Missouri
STEVE CHABOT, Ohio                   EARL F. HILLIARD, Alabama
MARSHALL ``MARK'' SANFORD, South     BRAD SHERMAN, California
    Carolina                         ROBERT WEXLER, Florida
MATT SALMON, Arizona                 STEVEN R. ROTHMAN, New Jersey
AMO HOUGHTON, New York               JIM DAVIS, Florida
TOM CAMPBELL, California             EARL POMEROY, North Dakota
JOHN M. McHUGH, New York             WILLIAM D. DELAHUNT, Massachusetts
KEVIN BRADY, Texas                   GREGORY W. MEEKS, New York
RICHARD BURR, North Carolina         BARBARA LEE, California
PAUL E. GILLMOR, Ohio                JOSEPH CROWLEY, New York
GEORGE P. RADANOVICH, California     JOSEPH M. HOEFFEL, Pennsylvania
JOHN COOKSEY, Louisiana
THOMAS G. TANCREDO, Colorado
                    Richard J. Garon, Chief of Staff
          Kathleen Bertelsen Moazed, Democratic Chief of Staff
                                 ------                                

                 Subcommittee on The Western Hemisphere

                  ELTON GALLEGLY, California, Chairman
DAN BURTON, Indiana                  GARY L. ACKERMAN, New York
CASS BALLENGER, North Carolina       MATTHEW G. MARTINEZ, California
CHRISTOPHER H. SMITH, New Jersey     ROBERT MENENDEZ, New Jersey
ILEANA ROS-LEHTINEN, Florida         ROBERT WEXLER, Florida
MARSHALL ``MARK'' SANFORD, South     STEVEN R. ROTHMAN, New Jersey
    Carolina                         JIM DAVIS, Florida
KEVIN BRADY, Texas                   EARL POMEROY, North Dakota
PAUL E. GILLMOR, Ohio
               Vince Morelli, Subcommittee Staff Director
           David Adams, Democratic Professional Staff Member
                    Kelly McDonald, Staff Associate


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

H.E. Richard Leighton Bernal, Ambassador, Embassy of Jamaica.....     3
George A. Fauriol, Ph.D., Director and Senior Fellow, Center for 
  Strategic and International Studies, Americas Program..........     7
Anthony T. Bryan, Ph.D., Director and Senior Research Associate, 
  Dante B. Fascell North-South Center, Caribbean Studies Program, 
  University of Miami............................................    11

                                APPENDIX

The Honorable Elton Gallegly a Representative in Congress from 
  California and Chairman, Subcommittee on Western Hemisphere....    22
Ambassador. Richard L. Bernal....................................    24
Dr. George A. Fauriol............................................    42
Dr. Anthony T. Bryan.............................................    51
Dr. Ransford W. Palmer...........................................    64

 
 THE U.S. AND THE CARIBBEAN IN THE NEW MILLENNIUM: WHAT IS THE AGENDA?

                              ----------                              


                        Wednesday, May 17, 2000

                  House of Representatives,
                Subcommittee on Western Hemisphere,
                      Committee on International Relations,
                                                   Washington, D.C.
    The Subcommittee met, pursuant to notice, at 1:30 p.m. In 
Room 2200, Rayburn House Office Building, Hon. Elton Gallegly 
(Chairman of the Subcommittee) presiding.
    Mr. Gallegly. I will open the hearing.
    I have a markup going concurrently in the Judiciary 
Committee, and Congressman Ballenger is going to pinch-hit for 
me.
    Today, the Subcommittee continues its oversight hearings on 
the Western Hemisphere by reviewing the current political and 
economic environment in the Caribbean as well as United States 
policy toward the region.
    Three years ago, this Subcommittee held a similar hearing 
in the wake of the President's somewhat historic trip to 
Barbados to meet with the leaders of the Caribbean nations. 
This trip produced the Bridgetown Declaration, which was hailed 
as the beginning of a new era in U.S.-Caribbean relations and 
was referred to as a ``partnership for prosperity and 
security'' in the Caribbean.
    At our hearing then, Dr. Fauriol said that because the 
Caribbean craved greater understanding and attention from 
Washington, the Barbados meeting is probably at least 
symbolically a step in the right direction.
    In the Spring, 1997, edition of the Journal of Inter-
American Studies and World Affairs, Dr. Bryan wrote, ``The 
President has the opportunity to make his second term a 
memorable one in defining U.S. policy toward the Caribbean,'' 
and he asked, ``Will there be a difference this time around?''.
    Since that Barbados meeting, where such hopes rose, we have 
often heard a chorus of complaints from our neighbors in the 
Caribbean. These have included concerns that what should be 
U.S. interests in the region, such as strengthening democracy, 
pursuing economic integration, promoting sustainable 
development, and alleviating poverty, have given way to a 
vacuum of issues, as some have described it, and dangerously 
out of sync, as others have said.
    Specifically, the Caribbean nations complain that U.S. 
policy reflects a negative image of weak and inefficient 
governments, tainted by corruption and influences of the drug 
trade. In fact, the Caribbean nations often complain that U.S. 
policy, including our attitudes toward trade policy, is now 
totally dominated by a fixation with the drug agenda.
    Our neighbors in the Caribbean are important to us. While 
the drug trade is also important, this Committee is concerned 
about the perception that the U.S. agenda for the Caribbean may 
be too narrowly focused. We are concerned that the leaders in 
the Caribbean are frustrated with the United States and that 
anti-American rhetoric, as witnessed after the WTO decision on 
bananas, could increase if we hesitate to take a more proactive 
role in addressing the numerous problems facing the region in a 
sensible, coordinated way.
    This hearing, then, poses similar questions asked by Dr. 
Bryan: First, since the Barbados meeting, has a true 
partnership emerged? Second, have prosperity and security been 
adequately addressed? Third, has there been a difference in the 
U.S. policy toward the Caribbean in the past several years?
    It is the Subcommittee's hope that these and other 
questions can be addressed by our witnesses today.
     Before we hear from our witnesses, there are other Members 
who may want to make an opening statement, and this is the 
appropriate time, and I would defer to my good friend, the 
gentleman from New Jersey, Mr. Menendez.
    Mr. Menendez. Thank you, Mr. Chairman.
    Very briefly, I want to take the opportunity to applaud the 
hearing we are having today and also to say that last week I 
joined with many of my colleagues in taking I think a major 
step forward in the economic future of the Caribbean and 
Central America with the passage of CBI parity legislation that 
I hope will not only bolster trade with the region and 
encourage foreign investment and much-needed jobs but will also 
be the beginning of an effort to try to change the conversation 
and the focus that we have had with the Caribbean, and I was 
happy to join in that effort.
    We too often ignore the Caribbean as American policy 
makers. We face threats still across the globe in terms of both 
security and in promoting democracy and human rights, and in 
that regard we focus on that to the detriment sometimes of our 
own region.
    It is true that we have serious concerns about money 
laundering and narcotics trafficking and those nations that are 
used for transiting. But by the same token I would hope that 
the Bridgetown plan of action, which laid out a plan of action 
for funding of education and institution building as well as 
dealing with those questions of anti narcotics and money 
laundering initiatives, would be heightened by the 
administration and by Congress itself, which has not funded 
those initiatives to the level that they need to be funded.
    It is our problem really, something that I have been 
talking about for the last 8 years as a Member of this 
Committee. It is a problem that we have with our overall focus 
both on the region followed up by the resources necessary in 
our development assistance in addition to our trade issues with 
the region. When over 50 percent of the people in the 
hemisphere live below the poverty level and we have a very 
small amount of resources, trade is an important part of 
promoting the area's future stability, but trade alone, 
unmatched by some of the economic assistance that we need to 
promote within the region, will not achieve some of goals.
    We look forward to hearing from the witnesses, and I ask 
that my full statement be entered into the record.
    Mr. Gallegly. Without objection.
    [The prepared statement of Mr. Menendez appears in the 
appendix.]
    Mr. Gallegly. I would ask unanimous consent that a 
statement on Caribbean economic relations submitted by Dr. 
Ransford Palmer of Howard University be made part of the 
record. If I hear no objection, that will be the order. Hearing 
no objection, that is the order.
    [The prepared statement of Mr. Palmer appears in the 
appendix.]
    Mr. Gallegly. At this time, I will turn the meeting over to 
our colleague from North Carolina, Mr. Ballenger, to take 
testimony from our first witness.
    Mr. Ballenger. [Presiding.] I would like to say, gentlemen, 
along with my friend here from New Jersey, we have been heavily 
involved in South and Central America and probably have not 
done the proper amount regarding the Caribbean.
    Ambassador Bernal.

STATEMENT OF H.E. RICHARD LEIGHTON BERNAL, AMBASSADOR, EMBASSY 
                           OF JAMAICA

    Mr. Bernal. Good afternoon, gentlemen. Thank you, Mr. 
Chairman, for inviting me to testify before this Committee on 
this important issue.
    These hearings are timely as they take place immediately 
after the passage of the Trade and Development Act of 2000 
which will promote U.S.-CBI trade. As we have embarked on a new 
millennium, it is an opportune time to evaluate the past and 
plan for the future. My comments today will focus on the 
CARICOM countries, which are the English-speaking countries of 
the region as well as Haiti and Suriname.
    CARICOM-U.S. relations are good at present reflecting 
economic interdependence, political cooperation and a long-
standing friendship based on common goals and shared 
principles. However, U.S. policy toward the region has been 
subsumed within a larger Latin American policy, and it is not 
easy to discern a policy which is specifically designed for the 
Caribbean and one which is consistently receiving attention and 
application. Attention devoted to policy toward CARICOM varies 
with U.S. perception of the state of these small countries. If 
the view is that the region is not a problem, attention is 
diverted; and, there is a focus when there is a concern.
    A more consistent and stable approach to the region is 
needed. Indeed, U.S. policy toward the wider Caribbean is 
fractured into several different policies. There are different 
policies for Central America, Cuba, the Dominican Republic, and 
Haiti and for the English-speaking Caribbean. There is not a 
holistic U.S. policy toward the Caribbean.
    In recent years the institution of regular meetings between 
the President and the prime ministers and leaders of the 
Caribbean as well as an annual meeting between foreign 
ministers and the Secretary of State has put the dialogue on 
U.S.-CARICOM relations on a much more secure footing, and 
enhances the understanding of the issues.
    In this regard, I commend the Committee for holding these 
hearings at this time. This is a very important mechanism for 
garnering the views on U.S.-Caribbean relations and providing 
this information to Congress.
    Mr. Chairman, the international context in which U.S.-
Caribbean relations have been conducted in the past have 
changed. I would suggest that it has changed so dramatically 
that the world that we knew no longer exists. The world is not 
changing, it has changed and U.S.-Caribbean relations must take 
into account these changes.
    Two of the fundamental changes which affect the 
relationship have to do with the rapid and profound 
transformations which are involved in the process of 
globalization which have implications for both the United 
States and the region and for the relationship. Second, the 
traditional post World War political structure rooted very much 
in Cold War preoccupations has given way to a new era, and a 
new international order has not yet come into place. In this 
situation the strategic importance of the region seems to have 
declined in the perception of U.S. policy makers.
    The English-speaking Caribbean is peaceful, has a well 
established democratic system and is pursuing private sector 
led, market driven growth strategies. Hence, the region is not 
a ``crisis area'' from the U.S. point of view, leading many in 
the region is not among the priorities for U.S. foreign policy. 
Complacency is unwise since physical proximity and 
interdependence means that if the region experiences economic 
difficulties or political instability, there will be 
repercussions in the United States in the form of migrants, 
drug trafficking and other undesirable developments.
    The Caribbean reality is dominated by vulnerability, and 
this is a factor which has to be taken into account in U.S.-
Caribbean relations. In addition, there is a major disparity in 
size and level of development and power between the U.S. and 
the CARICOM countries.
    Nevertheless, there is a basis for partnership based on 
political cooperation and economic interdependence. The 
economic importance of the Caribbean is often not recognized. 
Let me illustrate.
    Co-production of apparel allows U.S. fabrics to be made 
into apparel in the Caribbean using U.S. machinery and 
Caribbean labor. The result is jobs in the U.S. in the textile 
industry and apparel jobs in the Caribbean and indeed the 
finished product for U.S. firms allows them to stay globally 
competitive, so the disparities in size does not mean that 
there is not an important interdependence.
    The vulnerabilities faced by the Caribbean, which are the 
challenges it faces when trying to adjust to new global 
economic and political realities, are the following:
    First, economic vulnerability, because, these are very 
small economies where the scale of production and the units of 
production are small. For example, the largest firm in the 
English-speaking Caribbean is a quarter--their total is a 
quarter of a day's production of any of the top 10 firms in the 
U.S. So there are vast differences.
    The vulnerability also derives from the fact that these 
economies have traditionally been based on exporting one or two 
commodities often to a single market. Dominica used to depend 
for 80 percent of its foreign exchange on bananas sold in a 
single market, the United Kingdom market.
    Second, the region, for the most part, consists of small 
islands with fragile ecological systems, and the proneness to 
hurricanes has been very debilitating to development. Hurricane 
Hubert in 1988 destroyed about 33 percent of Jamaica's GDP. The 
hurricanes that hit Antigua in 1995 accounted for damage up to 
66 percent of GDP. The region has been hit both by hurricanes 
and by volcanic reaction. This is a setback on an ongoing basis 
for the region.
    Third, there is vulnerability on national security issues. 
These are small countries. Some of these countries have a 
population of less than 100,000. When matched against the 
enormous resources of the narcotrafficking cartels, it is very 
difficult to preserve democracy and resist the corrosive effect 
of narcotrafficking and the related transnational crimes such 
as money laundering.
    The challenge is how to overcome vulnerability in the new 
global context. One way of doing this is to undertake a process 
of strategic global repositioning, moving from old industries, 
improving international competitiveness and moving into new 
export sectors like infomatics. This is an ongoing process and 
one which can be beneficial not only to the Caribbean but to 
the United States.
    For example, some of these industries are intimately linked 
with the United States. The tourist industry, which accounts 
for about 30 percent of the export earnings in the region and 
one in five jobs, depends critically on U.S. investment and 
U.S. cruise shipping and transport and is one in which several 
million U.S. visitors go to the region each year.
    I now want to turn to the issues which arise from this 
vulnerability and the relationship and to suggest some policy 
directions. I will do this in two sections, the economics and 
then the security aspects.
    The economic issues are as follows:
    The Caribbean is one of the 10 largest export markets for 
the U.S. The U.S. has had a trade surplus with the CBI 
countries at least for the last 10 years there in economic 
interdependence, for example when Jamaica earns U.S. $1 from 
exporting garments to the U.S., it spends some .50 cents buying 
U.S. goods. In addition, approximately 350,000 jobs in the U.S. 
depend on the trade between the CBI region and the CARICOM.
    Mr. Chairman, turning to specifications within the economic 
gambit, CARICOM has relieved and happy at the passage of H.R. 
434 which has been a corrective in that it has provided a level 
playing field with Mexico so that the region is no longer at a 
disadvantage of facing quotas and tariffs in the export of our 
apparel. This is an important development, and we congratulate 
you for your role in passing this legislation.
    Another important area of trade is the FTAA. Here the 
disparities between countries like Canada, Brazil, Mexico, the 
United States and countries like St. Lucia and St. Vincent are 
enormous. Therefore in the design of the FTAA, account must be 
taken of these differences by allowing these countries some 
concessions.
    The U.S. policy on bananas, Mr. Chairman, is a most 
unfortunate policy. It has damaged the friendship with the 
Caribbean; and it also will have long-term, deleterious effects 
on CARICOM and may eventually have adverse consequences for the 
U.S. As these small banana farmers on two or three acres were 
eliminated from their only market, it led to a situation of 
increased vulnerability to drug trafficking and other illicit 
activities.
    Mr. Chairman, the WTO has launched a new round of 
negotiations focused on services and agriculture, two areas of 
critical importance to the Caribbean. The issue of the small 
size of CARICOM economies must be addressed by measures 
incorporated in the WTO. This will not set a precedent, as this 
merely extends principles which are already included in the WTO 
agreement for developing countries. These measures should 
include variations in the obligations, extended periods for 
implementation and technical assistance for capacity building.
    Mr. Chairman, trade liberalization has been the engine of 
growth in the world economy. Trade liberalization creates 
opportunities, but these opportunities only come to fruition 
with investment. Private investment has led growth in the 
Caribbean, however, there is still a need for development 
assistance. Development assistance from the U.S. to the region 
since 1985 has fallen from over $459 million to just over a 
$136 million. In the case of Jamaica, it has fallen from $165 
million to about $50 million in the last 4 years. U.S. aid 
still has an important role to play and the U.S. should try to 
restore aid to a more appropriate amount.
    Turning to security issues, Mr. Chairman there is an 
inextricable link between economic issues and security issues. 
Economic development is the best antidote to security issues 
which arise from narcotrafficking, transnational crime, et 
cetera.
    The CARICOM consists of small societies which are very 
vulnerable. The United States has played a very important 
collaborative role with these countries in handling threats to 
security. However, narcotrafficking is a growing menace, and 
more resources are necessary to cope with this problem. Mr. 
Chairman, that over the last 14 years no CARICOM, has been 
cited for not cooperating fully with the U.S. on narcotics, but 
it is an enormous strain for the region to sustain its counter 
narcotics campaign.
    In regard to money laundering, an activity associated with 
narcotrafficking, the Caribbean has made tremendous progress in 
updating regulatory capacity and legislation, and there is a 
role here for further cooperation with the U.S.
    Migration to this country from the Caribbean has gone on 
for over a century and has contributed to the development of 
this country as well as to the countries of CARICOM. However, 
there has been a policy of deportation implemented by the 
United States in regard to criminals which is not efficacious. 
It transports criminals back into the Caribbean in such large 
numbers that there has been an escalation of crime and violence 
throughout the Caribbean. Criminal deportees create 
transnational criminal networks because they have contacts in 
the United States. Many of them return illegally to the United 
States and, therefore, they are not being taken out of society 
by incarceration and not being punished by deporting them. They 
continue their activities, and this has been a major problem. I 
would like to call for a hearing on this issue so that the 
Caribbean can be incorporated into a revision of U.S. policy on 
deportation.
    Environmental preservation of CARICOM is a concern which is 
shared by the U.S. and CARICOM.
    Mr. Chairman, the CARICOM countries are not only important 
economic partners, and good neighbors, but can also, as small 
states in alliance with powerful states like the United States, 
play an important international role. Jamaica is now on the 
U.N. Security Council and is contributing to the struggle for 
international peace and security.
    Mr. Chairman, the countries of CARICOM and the United 
States, are faced by common challenges, but there is long-
standing friendship, economic interdependence and a partnership 
based on shared goals. The challenge faced by the Caribbean 
region, CARICOM in particular, for economic development while 
maintaining peace, the environment and democracy is one to 
which the United States can support and contribute, through 
partnership and cooperation.
    I would urge that in the review and formulation of U.S. 
policy, the ideas that emanate from this Committee should be an 
integral part. It is in the national self-interest of the U.S. 
to support the Caribbean in meeting the challenges of the new 
global environment.
    Thank you, Mr. Chairman, for your time. I am willing to 
accept questions, and I formally request that my written 
testimony which will be made available to you will be placed in 
the record. Thank you.
    Mr. Ballenger. Thank you, Mr. Ambassador.
    [The prepared statement of Mr. Bernal appears in the 
appendix.]
    Mr. Ballenger. Let me say that the charts that you used, 
that you spoke of, we don't have copies up here.
    Mr. Bernal. I will be happy to provide those.
    Mr. Ballenger. Thank you.
    [The information referred to appears in the appendix.]
    Mr. Ballenger. I would like to report to my compatriot here 
from New Jersey that I just got word that there are some 
procedural votes coming up. So we hope we don't interrupt you.
    Dr. Fauriol, would you like to go ahead?

  STATEMENT OF GEORGE A. FAURIOL, PH.D., DIRECTOR AND SENIOR 
    FELLOW, CENTER FOR STRATEGIC AND INTERNATIONAL STUDIES, 
                        AMERICAS PROGRAM

    Mr. Fauriol. Thank you, Mr. Chairman.
    Exactly 3 years ago I had the privilege to appear before 
this Committee when it held a hearing on U.S.-Caribbean 
relations, and at the time I suggested perhaps a bit harshly 
that there was no distinct U.S. policy on the Caribbean. There 
were, instead, a number of functional and country-specific 
issues stitched together. Let me update you on this today.
    As has been to some degree mentioned by Dr. Bernal, the 
bulk of our relationship with the region remains focused on 
four distinct and generally compartmentalized issues. Two of 
the most visible politically and contentious diplomatically are 
policies associated with Cuban affairs, as well as the fits and 
starts regarding Haiti policy.
    The third domain could be characterized as trade concerns 
which have preoccupied both Washington and the region for more 
than 15 or 20 years, particularly if you anchor it around the 
history of the CBI, and as already been mentioned is this week 
coming to a new stage with the favorable outcome of the Africa 
CBI trade bill.
    There is a fourth aspect of policy, narcotics trafficking 
control, which has continued its preeminence in the formulation 
of U.S. regional engagement.
    With this as a backdrop, I am stepping backward and 
imagining myself as the average American citizen looking at the 
Caribbean. The image that the public at large still has of the 
region is principally as a tourism destination and as a source 
of the nation's illicit drug trafficking.
    The irony or the rub for policy makers, not only here in 
Washington but also at the state and local level, is that U.S. 
involvement in the region is often underestimated, perhaps 
under appreciated. Emergency relief, search and rescue are a 
highly visible component of involvement in the region. In the 
area of commerce, the aggregates of Caribbean and Central 
American economy amounts to a two-way trade with the United 
States of about $40 billion, which makes the region a 
significant global player for the United States.
    Also countering in many ways the message that I often hear 
from Caribbean leadership and intellectuals about the 
inequalities due to size, portions of the Caribbean region are 
in fact engaging in what could be described as a globalized 
economic, even political environment. Information technology, 
communications-based service industry, new business strategies 
that build on that can leapfrog the region's enterprising young 
leaders into the mainstream of the 21st century, even if, in 
fact, they are in the Caribbean.
    The problem for the United States is that we still face a 
region that remains fragmented geographically and politically, 
which explains in part the compartmentalized aspects of U.S. 
policy. Many Caribbean governments and opinion makers remain 
fixated by the need to level the playing field, particularly 
economically, and outflank the vulnerabilities borne of small 
size or small states.
    A climate of uncertainty also exists regarding an eroding 
quality of regional governance, which is probably particularly 
applicable to the English-speaking Caribbean which has had a 
long tradition of democratic governance.
    In Haiti, democratization is stalled. In Cuba, it is 
strangled by the Castro regime. The result has been mounting 
stress on the political systems and the weakening of 
institutions upon which they rest.
    On average, portions of U.S.-Caribbean relations, 
therefore, remain involved with mutual frustrations and, to 
some degree, annoyances. Some of this is linked to pressures 
regarding drugs and money laundering.
    Likewise, the banana-producing Caribbean states are still 
angered over Washington's missionary zeal regarding market 
access for bananas into the EU and the ensuing WTO case. There 
are frustrations in the Dominican Republic and Jamaica, more 
recently in Trinidad and Tobago and elsewhere, which have taken 
issue with the reverse flow of deported criminals and other 
undesirables from the United States, and there are also 
indications of a flow of arms and weapons into the Caribbean 
supplying criminal elements.
    Ultimately, however, the practical alternatives in U.S.-
Caribbean relations are probably relatively limited even if 
there is a feeling occasionally heard in the region that the 
United States is selective and not always a willing ally to the 
region's small countries.
    Europe obviously remains a potential alternative for the 
Caribbean with limited options in both economic and diplomatic 
terms, most recently expressed by the visit of the French 
President in the Eastern Caribbean. But with the Lome-UE 
preferential trade and investment regime beginning to fade, the 
proximity and general access to the $570 billion NAFTA market 
is the prize for the Caribbean. Beyond that are the hopes, as 
Ambassador Bernal has mentioned, somewhere down the road.
    There continues to be frustration over Washington's 
handling of Cuban policy, but the region has also opened up to 
other concerns, unpleasant concerns. This includes well-
connected unsavory types, money laundering, the citizenship-
for-sale program in a number of countries, and the embrace of 
suspect investors in offshore banking and gambling. This is 
happening in part not only because governments in the region 
are weak, weak actors and weak institutions, but many perhaps 
are also willing partners in these kinds of activities.
    The Trinidad-based Caribbean Financial Action Task Force 
recently estimated that there are $60 billion in drug and crime 
money that were being laundered every year in the Caribbean 
region. The region's narcotics policy file is no more 
encouraging today than it was 3 years ago when I testified here 
before this Committee. The cycle continues, with pressures in 
Mexico and Central America leading to stepped-up efforts in the 
Caribbean. Drug money continues to penetrate economies through 
real estate and other kinds of investment vehicles.
    A word about the CBI. I am still of the belief that 
preferential trade arrangements are probably an endangered 
species. The Caribbean strategy, which is probably the correct 
strategy from its perspective, is to carve out as best as it 
can windows of opportunity within the upcoming FTAA process. 
That may turn out to be a better effect than the potentially 
delayed millennium global trade round. The United States can 
and should be understanding of these small country concerns 
and, therefore, the current--or the recent now successful 
legislative effort to finalize a modestly expanded CBI is a 
step in the right direction coming at the right time.
    But the practical reality within the Caribbean in response 
to international trade investment I believe is likely to be a 
continuing informal breakup of the region into sets of 
countries which will engage globalization at different speeds. 
Recent economic successes in Trinidad and Tobago and the 
Trinidad Republic, Barbados, may be good examples of how the 
Caribbean, in fact, will be successfully engaging that 
globalized environment. Some will do less well and will 
therefore have to take advantage of provisions extracted from 
multilateral trade negotiations and residual trade arrangements 
such as the CBI.
    Let me conclude with a few brief comments about Haiti and 
Cuba. Three years ago in my testimony before this Committee I 
argued that the issue then was to reconcile the 
Administration's political imperative to claim success with the 
very uncertain reality that existed on the ground at the time 
regarding any real chance of democratization and economic 
renewal. That more or less remains the reality of U.S. policy 
today.
    U.S. policy in Haiti, I would argue at this point, has 
collapsed and/or is collapsing, and there is a need for 
Congress to reimpose some discipline in this area. Local and 
parliamentary elections scheduled for March 19 were postponed 
until this coming Sunday. These are elections originally 
scheduled for November, 1998. Haitian President Rene Preval and 
the provisional election commission have in the last 2 months 
or so been arguing over authority over the electoral process 
with the president getting the upper hand, backed up by a wave 
of political violence targeted specifically at the opposition.
    In sum, Haiti is a country where elections are not being 
held on time, results are not credible, foreign aid is wasted 
or not spent, the economy is wide open to the drug trade, the 
president of the country rules by decree, political 
intimidation is widespread. The new national police is in fact 
disappearing and not being very effective and may be the source 
of violence. It has become difficult to support a policy which 
is so wasteful in resources and missed political opportunities.
    Just as an indicator, the most recent incident involving 
the expulsion of the head of the International Foundation for 
Electoral Systems, IFES. The IFES mission is one of the major 
actors in the technical implementations of elections in Haiti 
with funding from USAID. The government of Haiti had obtained 
an internal IFES document suggesting that President Preval was 
attempting to postpone the elections.
    To me, this is in many ways the end of the line as far as 
the credibility of the electoral process in Haiti is concerned, 
and I would therefore at this point confirm my impression in 
two areas about elections in Haiti:
    First, clearly a continuation of the various congressional 
holds on the electoral assistance to Haiti until there is a 
clarification of these various problems surrounding the 
process. Second, although it is awfully close to the date, I 
would be cautious in supporting U.S. congressional observer 
delegations to the process this coming Sunday. Despite the fact 
that other governments and other organizations may be sending 
observers, I hear in the last few days, for example, that the 
Quebec parliament has withdrawn plans for its delegation 
because of concerns over violence.
    Finally, on Cuba, this is still arguably one of the least 
satisfying components of U.S. policy not only in the Caribbean 
but in probably the rest of the hemisphere.
    Mr. Ballenger. Could you speed up? We would like to get Dr. 
Bryan's testimony before the vote.
    Mr. Fauriol. There is not much for me to add from where I 
was 3 years ago. The danger in the present situation are not 
the defects of U.S. Legislation but the deteriorating logic of 
the Cuban communist state.
    [The prepared statement of Mr. Fauriol appears in the 
appendix.]
    Mr. Ballenger. Dr. Bryan, I don't want to rush you, but----

   STATEMENT OF ANTHONY T. BRYAN, PH.D., DIRECTOR AND SENIOR 
   RESEARCH ASSOCIATE, DANTE B. FASCELL NORTH-SOUTH CENTER, 
         CARIBBEAN STUDIES PROGRAM, UNIVERSITY OF MIAMI

    Mr. Bryan. Thank you, Mr. Chairman. Thank you for the 
invitation to testify before this hearing.
    I was given a fairly large agenda, namely to assess the 
current political and economic conditions facing the Caribbean, 
the region's priorities and the U.S. role. I will deal with 
each of them very briefly. I will limit my comments to the 
island nations and the continental enclaves of Guyana, Belize, 
and Suriname.
    Economically, this region has followed the neo-liberal 
reform rule book. It has implemented policies mandated by the 
International Monetary Fund, the World Bank, and regional 
funding agencies. Its governments have trimmed fiscal deficits, 
privatized state-owned commercial enterprises, and liberalized 
trading regimes. Even Cuba, which still continues to labor 
under a deliberate ideological model that doesn't encourage 
democracy, has introduced what I call some version of ``a la 
carte capitalism'' which encourages direct foreign investment 
in certain sectors of the economy.
    The present transition in the political economy of the 
Caribbean region is full of uncertainties. Many of the small 
economies are heavily dependent on one or a few traditional 
export commodities for which world prices are not likely to 
rise.
    While inflation rates and fiscal deficits are being 
contained in most Caribbean countries and growth rates are 
respectable, the economic foundations are shaky. Revenues from 
privatization sales and reductions in basic government services 
are not formulas for sustainable growth. So global enterprise 
competitiveness is the real challenge that most of the 
countries face.
    When we look at the Caribbean, we have to appreciate the 
diversity in economic growth; and if we look at the review of 
the 1999 economy, which was done by the Caribbean Development 
Bank, we find that GDP growth in the region ranged from 1 
percent to over 8.3 percent. The growth was strong in service-
oriented economies which had invested heavily in tourism in 
recent years. The star performers were the Dominican Republic, 
which achieved a growth rate of 8.3 percent, one of the highest 
in the world, and Trinidad and Tobago which grew at 6.9 
percent.
    The new regionalism in the Caribbean is reflective of this 
economic diversity. The absence of a large regional market 
means that the approach to integration has to be different from 
any large integration area. In that context, the formation of 
the CARICOM single market and economy whose remaining protocols 
were signed during 1999 and early 2000 is a significant step 
toward the ideal of economic integration.
    I think there are three characteristics at this juncture 
which are clear about the Caribbean economy: First, there is 
growing acceptance of globalization, corporate integration and 
the hemispheric trade momentum. Second, there is a paradigm 
shift in integration theory and practice from a vertical 
perspective (North America and Europe) toward a horizontal 
relationship between the countries of the wider Caribbean and 
Latin America. Third, the challenges confronting the Caribbean 
with respect to trade with Europe and the Americas are 
essentially similar. These have to do with the future of 
existing regimes of significant differences, and a strategy is 
developing which allows simultaneous access to as many global, 
regional and bilateral trade pacts as possible.
    I take a slightly different view to a number of my 
colleagues with respect to Caribbean economies. I think in the 
future the assumption that small Caribbean economies cannot 
compete in international markets may no longer be valid. Some 
small economies can dominate niche markets; tourism, 
information services, energy based or petroleum industries, and 
some of the larger Caribbean economies are already 
demonstrating their ability to compete globally in such niche 
markets. They have high educational standards and skilled labor 
resources which compete with many other areas of the world.
    With respect to governance, I think that trends in 
politics: declining political participation, frustration with 
the parliamentary system of politics, changes in leadership, 
conversion to neoliberal economic policies by political parties 
which have traditionally represented labor, and changing 
relationships between labor, business and government, all of 
these will have an impact on the political economy of the 
region in the earlier years of the 21st century.
    Finally, what about the role of the United States? I think 
both the Caribbean countries and the U.S. share common ground 
on a wide range of issues. Individual Caribbean countries have 
their own perception of the kind of relationship that they want 
to develop, and the political and economic diversity of the 
Caribbean does not now provide the U.S. with any possibility of 
devising a single comprehensive policy to the region as a 
whole. However, there are agendas of opportunity.
    I think the passage last week of H.R. 434 is a welcome step 
in the direction of such convergence and cooperation. Also 
important are the frequent meetings between Caribbean heads of 
government, and other foreign ministers and their counterpart 
in the United States, which were set in motion by the 
Bridgetown Accord in April 1997.
    I have just returned from the region, and I would suggest 
that there are several issues which are critical:
    First, hearing of Caribbean concerns about the OECD 1998 
report on harmful tax competition as well as the Clinton 
administration's budget proposals for a bill which would 
require the U.S. for the first time to establish a blacklist of 
tax havens.
    Second, the possibility of a U.S. European Union accord on 
the granting of a WTO waiver for Caribbean bananas.
    Third, the strengthening of a joint approach to fight drug 
trafficking, illegal firearms and transnational crime.
    Fourth, completion of discussion of a memorandum of 
understanding on deportation procedures for criminals deported 
from the U.S. to the Caribbean that are acceptable to both 
parties. This would include more timely notification and 
sequencing of deportation.
    Fifth, speedy implementation of the agreed support and 
cooperation of the USAID Caribbean regional strategy and 5-year 
program of assistance with regard to trade, business 
development and economic diversification and investment.
    Sixth, the provision of technical assistance for economic 
reforms, particularly in smaller economies.
    Seventh, closer cooperation with key Caribbean countries, 
not only in major security matters but also in broader gray 
areas such as the prevention of environmental degradation and 
the provision of food security.
    Finally, continued dialogue between the Caribbean nations 
and the U.S. to assure peaceful political transitions in Haiti 
and Cuba.
    This mix and management of the broader concerns is where 
the U.S. would have to direct its efforts. There is need I 
think for consolidation of a mutually productive relationship 
with the Caribbean, and it does not have anything to do with 
big brother or small country; it is simply that this is a 
common neighborhood. A lot of the problems that we share cannot 
be resolved without further collaboration and cooperation and 
continuous discussion.
    Thank you.
    [The prepared statement of Mr. Bryan appears in the 
appendix.]
    Mr. Ballenger. We are going to have several votes. The 
basic idea is that it may be continuous. I would like to check 
and see if my vote is needed. I am going to go vote, and then I 
will just skip the rest.
    I think we are playing games, and that occurs every once in 
a while in potential political problems. We only have a five-
vote spread, and so if I have to come back and go back, I will. 
But I will be back to question you gentlemen, if I may. I hope 
you don't mind. It will probably take 10 or 12 minutes to go 
over there and get back.
    We will recess the Subcommittee for 10 or 12 minutes.
    [recess.]
    Mr. Ballenger. Dr. Bryan, since we cut you off, maybe you 
had some more words of wisdom that you would like to pass on 
before we get into questioning.
    Mr. Bryan. Actually I would defer to questioning. I think 
it would be appropriate.
    Mr. Ballenger. Yes, sir.
    Mr. Bernal. I would like to add two points which, I 
neglected to mention.
    First, is that the sugar quotas for the U.S. is an 
important issue because that is still an industry that is 
important to the CARICOM, but the quotas are being threatened 
because Mexico has asked for its NAFTA quota to be increased. 
Given that there is a surplus of sugar in the world and 
increased domestic production as well, the only way that 
Mexico's quota could be increased would be to take it from the 
bilateral quota system. Nothing should be done to reduce the 
quotas of the CARICOM countries which are already quite small, 
but very important.
    The second issue is that there is a major agreement between 
the EU and the ACP countries, and it is an agreement which 
gives concessions to those developing countries, and in the 
past it has been known as the Lome convention. Like CBI, it 
requires a waiver under the WTO rules.
    The assurances by the administration, that there will be no 
objection to the waiver for the new EU-ACP agreement, is very 
important.
    Thank you for allowing these additional comments. I would 
be happy to take questions.
    Mr. Ballenger. When you mentioned your hurricane, whatever 
happens in Central and South America--I apologize to people 
down there--my wife and I have been working in that area for 35 
years. We tell people, if you want to get our notice, have a 
war or blow up--hurricanes, we pay some attention all of a 
sudden. But the sad part is that it does have that effect.
    When Hubert hit Jamaica in 1988, I am sure you didn't know 
that the first airplane that landed there came in from 
Charlotte, North Carolina; and it had a package disaster field 
hospital on it, and my wife and I, we delivered 13 field 
hospitals all over the world, and one was to Jamaica.
    Sadly for us, we were involved in Haiti. A little lady came 
to see me, and she said, I am the mayor of my town, and I am 
also the school mistress. She said, I need pencils and paper. I 
got 800,000 sheets of 8\1/2\ by 11 paper and 50,000 pencils 
lined up with the solution order to take care of it; and the 
day after we shipped it, they burned her school down. The sad 
part, it was to no avail.
    One thing I would like to ask, and I don't know whether it 
is even feasible amongst you all, but having been involved in 
Central America, say, for 35 years and various and sundry 
countries there, I keep trying to tell them over and over again 
the one thing that will attract something other than a cut-and-
sew industry--and I come from North Carolina where we used to 
have the majority of the cut-and-sew industry in the United 
States. I voted for NAFTA, and my name has been mud in North 
Carolina ever since, because they blame it all on me. But, in 
reality, the jobs that we have sent elsewhere throughout the 
Caribbean and in Central America have been replaced by the 
three largest fiber optic cable plants in the world and heavily 
oriented toward German and Japanese industry, and so we are 
really much better off.
    But the one thing that made it attractive to these other 
areas was, in my considered opinion, education; and the greater 
your education is in your community or your island or whatever 
it happens to be, in my considered opinion you are going to be 
able to attract better industry.
    The example I use most often is, how did Costa Rica get 
Intel which has 2,000 or 3,000 people working there? Electronic 
assembly jobs are better paying than the cut-and-sew 
operations. I don't know whether the effort by the governments 
in the islands in general have been to upgrade their 
educational system, but I would like to have somebody's 
reaction to the fact that it appears to me that if the 
governments in these areas really are dedicated to try to 
upgrade the quality of their people and their lives--growing 
bananas doesn't take a developed intelligence, whereas the 
further you develop it the more you eat the bananas and try to 
do something else rather than ship them.
    Mr. Bernal, you represent a country.
    Mr. Bernal. Thank you, Mr. Chairman.
    Let me say, first of all, on record, thank you on behalf of 
the government of Jamaica for the action that you and your wife 
took so expeditiously. One of the things that always strikes me 
about the U.S. society, is that it is not just a rich society, 
it is a generous society, and that stands to your credit.
    Education, sir, is critical. It is a factor which the 
Caribbean has always placed emphasis on; and indeed many of the 
Caribbean persons who come here for employment are not in low-
end jobs, they are in high-tech jobs, in medicine, law, et 
cetera. The CARICOM countries are well placed to move, as you 
correctly stated, out of some of the lower-paying jobs in, say, 
apparel and agriculture into informatics and business services. 
Indeed, certainly for Barbados and for Jamaica, information 
technology is a priority. In the case of Trinidad, there is a 
very sophisticated high-tech industry based on oil and natural 
gas.
    Indeed, the CARICOM has produced all of the skills that are 
needed for the 21st century once you think of the Caribbean not 
as a physical but a nation without borders in which our 
Caribbean citizens here are available to join in nation 
building in their homelands.
    Mr. Bryan. Yes, Mr. Chairman, I think I just want to refer 
to what I said a little earlier when I had to race through this 
testimony.
    Caribbean economies in many instances are competing very, 
very well and some of them, as I said, in niche markets, such 
as information services, energy-based industries, and tourism. 
They also show great potential in a number of areas. Part of 
the reason for this is the highly educated and skilled labor 
resources in the region. This is what helps them to compete.
    One of the ironies is that education is one thing, but the 
lack of resources in some countries is another. What is a bit 
disturbing is that, despite democratic traditions, good human 
rights records, high educational levels, and relatively high 
levels of per capita income, some countries are still unable to 
obtain adequate levels of international funding to give them a 
jump start. This has been of great concern to the Commonwealth 
Secretariat and the World Bank which have just issued a report 
on small states and their needs and the recommendations which 
should be accepted by the international community and the 
international organizations. So we have the wherewithal in the 
region, but this irony still exists.
    Mr. Ballenger. If I may interrupt, that complaint is 
generally true in the larger Central American countries. The 
President of Nicaragua has told me over and over again, if I 
can just get a big bank--we have a little bank that can lend 
you 5 or $10,000 but they don't lend you $10 million and that 
necessary financing--I basically am a businessman who founded 
my own company, and you can't operate on $5,000 or $10,000 
worth of credit. I understand exactly what you are saying.
    Mr. Fauriol. Mr. Chairman, you mentioned the Intel example 
in Costa Rica, and you recall that was a multi-year strategy on 
the part of the Costa Rican government. It involved a carefully 
negotiated trade regime that made Costa Rica competitive for an 
Intel kind of investment.
    Looking at the Caribbean outside of the unique case of 
Haiti, a country that you are quite familiar with, the 
Caribbean has, historically had high standards of education. In 
some ways, that is not really the challenge. The challenge 
conceptually is education versus what has been a problem in the 
Caribbean, which is an insular vision or mentality. You can 
have highly educated people, but if they only look around their 
immediate neighborhood, it is not going to be fully 
articulated. But you probably have a consensus among the three 
statements that you have heard here, that in the Caribbean, the 
combination of high-value human resources and new technologies, 
will allow the region to enter the 21st century with a high 
degree of competitiveness.
    Mr. Ballenger. Ambassador Bernal, you mentioned the highly 
educated who have come to this country. My wife and I, at the 
request of Mrs. Jemaro, when she said that none of the young 
people in Nicaragua were being educated in this country, they 
were being taken to East Germany and was it possible for us to 
do anything. So we brought these children up from Nicaragua and 
sent them to college, but on the prerequisite that they had to 
go home. Because if you are educating people to upgrade the 
economies elsewhere and they don't go home, then all you have 
done is just added some educated people in this country. We 
need them, but your islands probably need them much worse than 
we do.
    Mr. Bernal. Mr. Chairman, that is a dilemma. But these 
people who migrate initially to study or if they are already 
qualified to work here are not lost to our system. They make a 
very significant contribution not only here in terms of their 
taxation and employment, but they send back to the Caribbean an 
enormous amount of resources which go not only into private 
investment but also to support schools and so on.
    There is actually a debate now in which many people suggest 
that the export of one person may actually be worth more to the 
economy than if we kept them at home. We have managed by 
producing a lot of skills that we have adequate skills in our 
country.
    However, I should enter the fact that Caribbean migrants 
are unique in the United States. They all intend to go back and 
in many cases there are cycles of movements where they go back 
and then they come back and it goes on. So they are not lost to 
us. Particularly now with the new technology of e-mail and so 
on, we can tap those skills in a way that we couldn't before. 
So we feel with this new technology they are not lost to us, 
and I might say that some of the most patriotic people in the 
Caribbean are in the United States. Patriotic both for this 
country and for our country. They are great Ambassadors for us, 
not lost to us.
    Mr. Bryan. I agree entirely with Ambassador Bernal. I am 
from Trinidad and last week we had meetings there on this very 
issue. A number of corporate entities in Trinidad are starting 
to face manpower problems at certain managerial levels. The 
economy has grown to the extent that there is also a labor 
shortage at some levels.
    A lot of the contribution is now being made from the 
Diaspora in the United States and elsewhere using e-mail. It is 
a border less world.
    For the first time, I am starting to see the tapping of 
investment potential from the North American diaspora. This is 
a very interesting phenomenon. It is not simply a question of 
remittances in the case of Trinidad and Tobago. It is more of a 
search for investment capital and a movement of investment 
capital. These are very interesting trends.
    Mr. Ballenger. If I may add to that, I worked rather 
heavily, as hard as I could, on passing CBI, and I had some 
friends from El Salvador working on that very thing. The 
reality--if I were going to skip Mexico but the rest of Central 
America--it seems to me that El Salvador is one of the few 
places that really has developed rather substantial light 
industry.
    The gentleman that was here working with me on this thing, 
he has two box plants, and he prints and makes plastic bags 
which is all fairly heavy machine oriented, investment in 
machinery. After it passed, he went from having laid off 600 
people in his plant--the day that we announced that we were 
going to vote on it and it looked like it was going to pass, 
his orders took off, and he immediately was offered the 
opportunity to sell two of his cut-and-sew plants. He was 
saying he thought he would sell them and build himself another 
one.
    The basic thing that I saw differently there was the 
ability to have investment capital, and I think it really--
again, you don't have the wars that I was involved with in El 
Salvador and Nicaragua, but people stayed there. Especially the 
Christian Arabs did not leave the country. They stayed there 
and continued to grow.
    Let me ask you, how would you as individuals assess the 
success of CARICOM at this point right now?
    Mr. Bernal. Thank you, Mr. Chairman.
    The CARICOM is the longest operating integration 
arrangement other than the European Union, and it has had 
success. It has had success in two ways.
    First, by integrating these small economies, it has 
provided a larger market in which companies can gain some 
economies of scale but also compete in that regional pool 
before they move into a global marketplace. The limitations on 
those achievements stem from the fact that these are very small 
economies. Even together as a regional market, they are still 
small by global standards. So there are limitations to this 
process, but it has been useful.
    Second, the regional cooperation aspect has been critically 
important. By cooperating as a group in mediating the encounter 
with the global economy and in international negotiations, 
there has been success. Certainly it has been a way in which 
these countries can pool their resources and therefore save on 
costs as well as get the best that the region has to offer. In 
those aspects CARICOM has been useful.
    In recent years, Suriname and Haiti have joined CARICOM, 
which is good particularly for Haiti but also good for CARICOM 
as well. CARICOM is strengthening links with the Dominican 
Republic through a free trade arrangement similar to those with 
Colombia and Venezuela. CARICOM is seeking to expand the size 
of the regional market but also to deepen the process of 
economic integration. For small countries, regionalism is an 
important strategy both economically and politically in 
articulating interests of the region in international affairs.
    Mr. Bryan. I think CARICOM has always been an ambitious 
organization and it has a long tradition of regional 
cooperation and integration. But sometimes the goal falls short 
of the ambition because of regional disparities in resources 
and capabilities.
    I think it is an organization that we have to be very proud 
of because it has really been one of the successful examples of 
functional cooperation and integration in the Western 
Hemisphere.
    Mr. Fauriol. CARICOM underscores one important factor, 
which is the unique institutionalization of the Commonwealth, 
the English-speaking Caribbean, for a long period of time, and 
that has an effect. Despite perhaps being an institution losing 
its way in the 1970's and 1980's and 1990's in terms of having 
an impact on the region itself, it did create an environment in 
which a whole subsidiary of set of dialogues, regular contact, 
a sense of continuing political and economic community, were 
sustained. These days, through technology changing 
international circumstances, as Ambassador Bernal suggested, a 
rationalization of these institutional efforts such as CARICOM 
is helping it become effective internationally. At this point 
my assessment of CARICOM is that it has been not historically 
very effective but still remains an important player in the 
institutionalization and progress of the region.
    Mr. Ballenger. Let me ask you, Dr. Fauriol, since you spoke 
earlier about Haiti, and we wonder what are we going to do, and 
our Committee is involved very heavily, we read that Mr. 
Aristide is pretty cut and dried going to be the next 
President. Could you venture an opinion as to--I don't think 
there are any newspapers here now. You are safe to say what you 
want. Could you venture an opinion as to what you think is 
going to go on there?
    Mr. Fauriol. The first marker is obviously the elections 
coming up this Sunday. I can only speculate. Conventional 
wisdom is that some form of an electoral process will take 
place. There will be voting and ballots and so forth. There is 
some concern that there could be some violence, although there 
is a contrary view that that is not going to occur. If there is 
any violence, it is going to occur in the subsequent phase 
which is the counting of the ballots and the confusion over the 
vote count and ultimately growing tensions as to what is really 
happening.
    My concern here, as I tried to express a little bit in my 
statement, there is a point after which the international 
community, including the United States, does have to be able to 
reconcile what we mean by democracy and elections.
    In Haiti, we may be reaching an awful low standard. The 
last elections that Haiti had in 1997, by the best accounts, 
the consensus that 5 percent of the folks even bothered to 
vote. I was an observer, and it was easy because there was not 
much to observe. Ultimately, those elections were, in effect, 
canceled over a period of about 2 years of political confusion.
    The other conventional wisdom, regardless of where one 
stands on the issue, is that ultimately this is just a prelude 
to Presidential elections at the end of the year and the return 
of former President Aristide to the National Palace.
    My scholarly hat tells me the following, which is that I am 
less concerned about the outcome of the election and I am more 
concerned about the process, and I am troubled by the 
cumulative effect of a qualitatively deteriorating electoral 
process since 1995 where a controversial individual will be 
elected in an environment which, even among Haitians, will be 
controversial, and the situation could deteriorate dramatically 
between now and the end of the year if violence and the 
collapsing economy become an issue.
    At this point, I am pessimistic, without a practical 
recommendation except to suggest that this may be the time to 
hold back and actually make a determination of where we are, 
what we have been doing and what hasn't worked. Therefore, the 
question of election observation to me is a good marker. If you 
sent observers, you are likely to be stuck in a situation where 
you have to pass judgment over an imperfect situation. If you 
withhold observation, you are in a position of being able to 
determine what might have happened or what, in fact, did 
happen.
    Mr. Ballenger. Was Porter Goss with you in that last 
election? Congressman Goss?
    Mr. Fauriol. Yes, I had the honor of being a Co-chair of 
the International Republican Institute Observer Delegation with 
Congressman Goss.
    Mr. Ballenger. When he told what he thought of the 
election, he caught hell for actually telling the truth. Our 
responsibility to the rest of the world seems to be getting 
terribly large, and in certain areas where you think that you 
can be effective, I don't know where that is, but it is not 
Kosovo and it is not Haiti. But Haiti is so close that if this 
country can tie up its news media for one little Cuban boy, 
what could we do for a couple of hundred thousand Haitians when 
they actually land here?
    I told Congressman Menendez that I would keep it going, but 
I think you all have a time schedule, and I would like to say 
that I thank you profusely for coming forward since I am 
heavily involved in Central and South America but I haven't 
done my little bit as far as your islands are concerned.
    My wife and I--because of the floods that Mitch caused we 
shipped enough steel to put the roofs on 2,500 homes in 
Honduras and Nicaragua. Venezuela, the floods there, we just 
shipped eight containers of used school furniture. If you 
gentlemen ever feel the need--things that we in the United 
States--obviously, in the United States you can't build a new 
school and keep old furniture. Old furniture in a school is not 
old furniture anywhere else in the world except here in the 
United States. I think I have sent four container loads to 
Honduras and eight to Venezuela. You haven't been hit by a 
hurricane lately, and I don't wish you bad luck, but the next 
time you do, let me know if we can help out. My wife and I, we 
are not a United Nations or USAID, but we try to be involved.
    I would like to thank you all for participating today.
    Mr. Bernal. Mr. Chairman, I would like to thank you for 
arranging this hearing. I thought it was very timely. I think 
it serves to direct attention to an issue which deserves more 
attention. I thank you for your leadership on these issues and 
your continuing interest.
    A hearing like this is useful because it promotes the 
dialogue not only among those have participated but in the 
written record it makes available to a wider audience a source 
of information which can be used for those interested in the 
Caribbean.
    I hope that these hearings will become a regular feature of 
the Congress. I note in your opening remarks that there had not 
been a hearing for about 3 years. I think this was what I hope 
will be the start of a regular series of dialogues, because the 
challenges that confront the U.S. and the Caribbean can only be 
overcome by our economic and political cooperation.
    I thank you for the attention of the Committee.
    Mr. Ballenger. Let me also thank you for being as active as 
you are. I know quite a few of the other Ambassadors we never 
hear from. Just a general appearance of the Ambassadors is 
effective in letting us know about problems that we don't know. 
Unless you take the Miami Herald, we don't know what goes on in 
Central or South America or the islands. The Washington Post 
and the New York City Times don't seem to care.
    Mr. Bernal. If I have not sent you enough letters on the 
CBI, I pledge to send you more information. Thank you.
    Mr. Ballenger. Again, we thank you all. Thank you for being 
here today. The Committee stands adjourned.
    [Whereupon, at 3:15 p.m., the Subcommittee was adjourned.]
      
=======================================================================




                            A P P E N D I X

                              May 17, 2000

=======================================================================

      
    [GRAPHIC] [TIFF OMITTED] T5659.001
    
    [GRAPHIC] [TIFF OMITTED] T5659.002
    
    [GRAPHIC] [TIFF OMITTED] T5659.003
    
    [GRAPHIC] [TIFF OMITTED] T5659.004
    
    [GRAPHIC] [TIFF OMITTED] T5659.005
    
    [GRAPHIC] [TIFF OMITTED] T5659.006
    
    [GRAPHIC] [TIFF OMITTED] T5659.007
    
    [GRAPHIC] [TIFF OMITTED] T5659.008
    
    [GRAPHIC] [TIFF OMITTED] T5659.009
    
    [GRAPHIC] [TIFF OMITTED] T5659.010
    
    [GRAPHIC] [TIFF OMITTED] T5659.011
    
    [GRAPHIC] [TIFF OMITTED] T5659.012
    
    [GRAPHIC] [TIFF OMITTED] T5659.013
    
    [GRAPHIC] [TIFF OMITTED] T5659.014
    
    [GRAPHIC] [TIFF OMITTED] T5659.015
    
    [GRAPHIC] [TIFF OMITTED] T5659.016
    
    [GRAPHIC] [TIFF OMITTED] T5659.017
    
    [GRAPHIC] [TIFF OMITTED] T5659.018
    
    [GRAPHIC] [TIFF OMITTED] T5659.019
    
    [GRAPHIC] [TIFF OMITTED] T5659.020
    
    [GRAPHIC] [TIFF OMITTED] T5659.021
    
    [GRAPHIC] [TIFF OMITTED] T5659.022
    
    [GRAPHIC] [TIFF OMITTED] T5659.023
    
    [GRAPHIC] [TIFF OMITTED] T5659.024
    
    [GRAPHIC] [TIFF OMITTED] T5659.025
    
    [GRAPHIC] [TIFF OMITTED] T5659.026
    
    [GRAPHIC] [TIFF OMITTED] T5659.027
    
    [GRAPHIC] [TIFF OMITTED] T5659.028
    
    [GRAPHIC] [TIFF OMITTED] T5659.029
    
    [GRAPHIC] [TIFF OMITTED] T5659.030
    
    [GRAPHIC] [TIFF OMITTED] T5659.031
    
    [GRAPHIC] [TIFF OMITTED] T5659.032
    
    [GRAPHIC] [TIFF OMITTED] T5659.033
    
    [GRAPHIC] [TIFF OMITTED] T5659.034
    
    [GRAPHIC] [TIFF OMITTED] T5659.035
    
    [GRAPHIC] [TIFF OMITTED] T5659.036
    
    [GRAPHIC] [TIFF OMITTED] T5659.037
    
    [GRAPHIC] [TIFF OMITTED] T5659.038
    
    [GRAPHIC] [TIFF OMITTED] T5659.039
    
    [GRAPHIC] [TIFF OMITTED] T5659.040
    
    [GRAPHIC] [TIFF OMITTED] T5659.041
    
    [GRAPHIC] [TIFF OMITTED] T5659.042
    
    [GRAPHIC] [TIFF OMITTED] T5659.043
    
    [GRAPHIC] [TIFF OMITTED] T5659.044
    
    [GRAPHIC] [TIFF OMITTED] T5659.045
    
    [GRAPHIC] [TIFF OMITTED] T5659.046
    
    [GRAPHIC] [TIFF OMITTED] T5659.047
    
    [GRAPHIC] [TIFF OMITTED] T5659.048
    
    [GRAPHIC] [TIFF OMITTED] T5659.049
    
    [GRAPHIC] [TIFF OMITTED] T5659.050
    
    [GRAPHIC] [TIFF OMITTED] T5659.051
    
    [GRAPHIC] [TIFF OMITTED] T5659.052
    
    [GRAPHIC] [TIFF OMITTED] T5659.053
    
    [GRAPHIC] [TIFF OMITTED] T5659.054
    
    [GRAPHIC] [TIFF OMITTED] T5659.055
    
                                     <all>
</pre></body></html>
